                                                     October 30, 1996




   TO THE BOARD OF DIRECTORS OF THE LEGAL SERVICES CORPORATION
                                AND
                    THE UNITED STATES CONGRESS


       This Semiannual Report (SAR) on the activities of the Office of Inspector General (OIG) of
the Legal Services Corporation (LSC) covers the six-month period from April 1, 1996 through
September 30, 1996. Section 5 of the Inspector General Act of 1978 requires that the Board of
Directors, as the designated Federal entity head, transmit this report to the appropriate committees
of Congress within 30 days, together with its report commenting on the contents of the SAR.



                                                     Edouard Quatrevaux
                                                     Inspector General
                                                  TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     Corporate Structure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     Grant-Making Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     Certification of Independence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

PROGRAM INTEGRITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    IMPLEMENTATION OF COMPLIANCE MONITORING
         UNDER LSC’S FISCAL YEAR 1996 APPROPRIATIONS ACT . . . . . . . . . . .3
         Audit Guidance Authority Questioned . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
         Compliance Supplement to the Audit Guide . . . . . . . . . . . . . . . . . . . . . . . . . 3
         Compliance Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3

          AUDIT AND INSPECTION ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
               Status of Findings and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
               Inspection on the Usage of Government-Sponsored
                       American Express Cards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
               Quality Assurance Reviews (QARs) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
               Recipient Financial Statement Audit Report Reviews . . . . . . . . . . . . . . . . . . 4
               Statistical Summary of Audit Activity
                       for the period ending September 30, 1996 . . . . . . . . . . . . . . . . . . . . . . 5

          INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               Statistical Summary of Investigative Activity for the
                       period ending September 30, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
     Legislative Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
     Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

PROGRAM ASSESSMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Review of Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Information Systems Development . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Home Page on the Internet. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

TABLE I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

TABLE II . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

TABLE III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                   INSPECTOR GENERAL’S MESSAGE

       In the Semiannual Report of September 1995, I stated that implementation of the Inspector
General Act at the Legal Services Corporation had been completed. However, recent events have
proved me wrong. The Board of Directors, the “entity head” for IG Act purposes, has questioned
anew fundamental provisions of the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3,
and the intent of Congress in establishing an independent Office of Inspector General at LSC.

        At meetings on the last two days of this reporting period, the Board of Directors questioned
the IG’s general authority to establish operational and budget priorities and the following specific
statutory authorities of the IG:

        * authority to promulgate guidance for grantee audits, § 4(a)(1);1
        * authority for OIG personnel matters, § 8G(g)(2);
        * authority to procure contractual services, §§ 6(a)(9); 8G(g)(2);
        * authority to conduct activities with respect to a matter relating to the promotion of
          economy and efficiency in the Federal legal services program, §§ 4(a)(3); and
        * authority to coordinate relationships between LSC and Federal agencies, state and local
          governments, and non-governmental entities with respect to a matter relating to the
          promotion of economy and efficiency, § 4(a)(4).

       I am hopeful that these disputes will be resolved satisfactorily, and will report their status in
the next semiannual report or sooner as circumstances warrant.




        1
           In addition to the IG Act, LSC’s fiscal year 1996 and 1997 appropriations statutes explicitly state
that grantee audits will be conducted “in accordance with guidance established by the Office of Inspector
General.”
                                   INTRODUCTION


Corporate Structure

        The Board of Directors of the Corporation is composed of 11 members appointed by the
President of the United States with the advice and consent of the Senate. The Board sets general
policy and oversees the management of the Corporation. The Inspector General is appointed by and
reports directly to the Board in its capacity as head of the entity. The Board also appoints the
President of the Corporation, who serves as the principal management official of the Corporation.

Grant-Making Activities

        The Corporation is authorized by Congress to make grants and contracts to support the
provision of civil legal assistance to clients who meet eligibility requirements. The Corporation makes
more than 300 grants to entities that in turn provide legal assistance to indigent persons throughout
the United States, Puerto Rico, the U.S. Virgin Islands, and Micronesia.

Office of Inspector General

        The Office of Inspector General (OIG) was established as an independent office pursuant to
the 1988 amendments to the IG Act. Its statutory missions are to prevent and detect fraud and abuse,
and to promote efficiency and effectiveness in the activities administered or funded by LSC. The OIG
accomplishes its missions by conducting audits, investigations, inspections and program assessments,
and by making recommendations for change to legislation and regulations.

Certification of Independence

        Inspector General operations in this period were free of personal or organizational impairment
(see Inspector General’s Message, page 1).




                                                  2
                             PROGRAM INTEGRITY


IMPLEMENTATION OF COMPLIANCE MONITORING UNDER LSC’S FISCAL YEAR
1996 APPROPRIATIONS ACT

        LSC’s fiscal year 1996 appropriations act required that routine on-site monitoring of grantee
compliance with laws and regulations be accomplished through annual audits conducted in
accordance with guidance established by the Office of Inspector General. The requirement is
effective with audits of fiscal years beginning January 1, 1996, and the audits will be conducted
January-April 1997. The appropriations act also established new restrictions and prohibitions
relating to the types of cases that may be serviced by grant recipients.

Audit Guidance Authority Questioned

       The OIG developed a new Audit Guide to implement the requirements of the appropriations
act and planned to publish it on October 2, 1996. At a meeting of the LSC Board of Directors on
September 30, the Board questioned the OIG’s authority to publish audit guidance without its
approval. The Board requested a delay in the publication of the Audit Guide, requested the OIG to
provide its view of applicable law, and scheduled a meeting for October 15, 1996. The published
agenda for the meeting had two substantive items: the first was to “consider and act on whether the
LSC Board of Directors has oversight responsibility for the adoption of revisions to LSC’s Audit
Guide,” and the second was to “consider and act on revisions to LSC’s Audit Guide.” The meeting
was canceled after receipt of OIG’s written comments, and the Audit Guide was published by the
OIG on October 22, 1996.

Compliance Supplement to the Audit Guide

        The Compliance Supplement to be issued with the Audit Guide has been expanded to include
coverage of all the new restrictions and prohibitions on the types of cases that may be serviced by
recipients and on the types of activities in which recipients may participate. The Compliance
Supplement helps auditors who are unfamiliar with LSC-related laws and regulations in their
examination, testing, and reporting on recipient compliance with the new restrictions and prohibitions.

Compliance Audits

        Two special audits of grantee compliance have been initiated. The first is a performance audit
to determine through on-site review whether selected recipients have complied with the requirements
of the 1996 appropriations act. The review will also assess whether recipients have divested
prohibited cases as reported. In addition to case file reviews, the audit teams will seek information
from third parties such as public housing authorities and social services agencies.

                                                  3
        The OIG also will conduct a financial audit to determine whether selected recipients have
developed alternative methods in which to continue participation in prohibited cases, or in restricted
cases or activities. The audit will focus on whether LSC funds have been provided to individuals or
organizations which engage in prohibited or restricted cases and activities.

AUDIT AND INSPECTION ACTIVITIES

Status of Findings and Recommendations

       There are no open recommendations.

Inspection on the Usage of Government-Sponsored American Express Cards

        During this period, the OIG completed its inspection to determine the extent Government-
Sponsored American Express credit cards had been used for purposes unrelated to official travel. The
Final Inspection Report will be issued during the next reporting period.

Quality Assurance Reviews (QARs)

        The OIG completed six QARs during the period. In 1995, the OIG examined the audit work
supporting the audit reports issued for three recipients in Pennsylvania. In 1996, the OIG re-
examined the audit work relating to the original three recipient audit reports, and reviewed three
additional audits to determine whether the firm had improved its performance with respect to the
quality of the audit work. The QAR report noted some improvements but a number of deficiencies
remained.

Recipient Financial Statement Audit Report Reviews

        Review of the December 31, 1995 recipient audit reports has been completed. The OIG
reviewed 248 audit reports, of which 28% required additional communications with recipients and
the auditors in order to obtain acceptable audit reports. Further, 29% of the audits received by the
OIG were late, and three reports have yet to be received. Significant findings and recommendations
have been referred to LSC management for review and initiation of corrective action.




                                                  4
           STATISTICAL SUMMARY OF AUDIT ACTIVITY
           FOR THE PERIOD ENDING SEPTEMBER 30, 1996


AUDIT REPORTS AND OTHER AUDIT-RELATED PROJECTS


    Open at beginning of reporting period                    15
    Opened during reporting period                           10
    Closed during reporting period                          <10>
    Open at the end of the reporting period                  15

RECOMMENDATIONS

    Pending beginning of reporting period                    3
    Reported during reporting period                         0
    Closed during reporting period                           3
    Recommendations pending as of March 31, 1996             0

QUALITY ASSURANCE REVIEWS (QARs)

    QARs Performed                                           6
    Audits Acceptable (met standards)                        0
    Audits Referred for Disciplinary Action (substandard)    0
    Reports Pending                                          0
    Reports Closed                                           6
    Reports remaining at end of period                       0




                                              5
INVESTIGATIVE ACTIVITIES

        During this period, 32 cases were opened and 29 were closed. The majority of the cases
resulted from information on losses (thefts and burglaries) provided by grantees in accordance with
grant assurances. The remaining cases were opened as a result of information obtained from other
sources, including internal sources, referrals from LSC offices, and calls or letters to the OIG Hotline.
The Hotline was contacted 40 times and resulted in one case.

         There were no cases referred for prosecution this period. A previously referred case remains
under consideration. Another previously referred case resulted in the issuance of a bench warrant for
failure to appear in court and is pending prosecution.

        An OIG investigation into the embezzlement of approximately $30,000 of grantee funds by
the former controller of a recipient in California resulted in a conviction for violation of one count
under 18 U.S.C. § 666, theft or bribery concerning programs receiving Federal funds. The former
controller was sentenced to three years probation and paid a special assessment fee of $50.00. The
former controller also agreed to make restitution to the grantee in the amount of $21,121.93.

        An OIG investigation into the alleged theft of approximately $25,000 by a former Executive
Director and attorney of a grantee in California, which had been declined previously for prosecution,
remains under review by the State Bar Association of Colorado for possible ethical violations.




                                                   6
STATISTICAL SUMMARY OF INVESTIGATIVE ACTIVITY FOR THE
             PERIOD ENDING SEPTEMBER 30, 1996



INVESTIGATIVE CASELOAD

    Investigations Open as April 1, 1996                      24
    Investigations Opened this reporting period               32
    Investigations Closed this reporting period              <29>
    Total Investigations in progress of September 30, 1996    27

CATEGORIES OF INVESTIGATIONS OPENED

    Internal (Relating to LSC)                               11
    External (Relating to LSC Grantee)                       21

RECOMMENDATIONS TO MANAGEMENT FOR CORRECTIVE ACTION

    Reported during this reporting period                     2
    Pending from previous period                              1
    Closed during this period                                 1

PROSECUTIVE ACTIVITIES

    Referred for prosecution this reporting period            0
    Prosecution Declined                                      0
    Pending Action                                            2
    Convictions                                               1




                                             7
         LEGISLATIVE AND REGULATORY REVIEW


Legislative Review

       The OIG reviewed several proposed legislative bills relating to LSC during this reporting
period. No written comments were provided to Congress.

Regulatory Review

         During this period, the Corporation worked to develop new and revised regulations to
institute changes mandated by LSC’s fiscal year 1996 appropriation act, especially new restrictions
placed by Congress on the activities of the recipients of LSC funds. The OIG assisted in this process
through written comments to management on successive drafts of 15 proposed regulations, meetings
with management, and, in limited instances, written memoranda to the Board of Directors or a Board
committee. OIG comments consisted mainly of suggestions to enhance effectiveness of the
regulations through the use of clear and concise language, suggestions to improve the extent to which
the regulations implement the apparent intent of Congress, and suggestions to facilitate the
monitoring of compliance by LSC recipients through annual financial and compliance audits.




                                                 8
                          PROGRAM ASSESSMENT


Review of Technology

        The OIG issued a report, Increasing Legal Services Delivery Capacity Through Information
Technology, which concluded that information technology could vastly increase the number of clients
served each year by LSC grantees. The report identified public access terminals, the Internet, and
legal assistance helpline/intake systems as technology applications, each of which could more than
double the number of clients served.

        The report also outlined a process for achieving the potential of these technologies. The
process begins with proof of concept evaluations conducted by the OIG to obtain cost and
operational effectiveness information for use by management in developing plans for their
introduction into the legal services delivery system. The first concept evaluation planned would use
the Internet and public access terminals to deliver legal assistance and information to victims of
domestic violence, including the production of petitions for protective orders. Preliminary work on
this project has begun.

Information Systems Development

        The OIG began development of the OIG Audit Information Management System (AIMS)
which is scheduled to be completed in the next semi-annual period. AIMS will track and record audit
findings reported and issued by Independent Public Accountants, the OIG, and GAO. In addition,
progress in audit resolution and corrective action plans will be tracked and monitored by AIMS.

Home Page on the Internet

The OIG has established a home page on the Internet. The purpose of this site is to make information
available to recipients, auditors and members of the public. The home page makes two-way
communication with the OIG more convenient by publicizing existing methods of communication
with the OIG and making it easier to send electronic mail to the OIG.




                                                 9
                                                      TABLE I

                               Audit Reports Issued with Questioned Costs
                                for the Period Ending September 30, 1996


                                                        NUMBER    QUESTIONED   UNSUPPORTED
                                                        REPORTS   COSTS        COSTS

A.        For which no management decision has          1         $6,557       $0
          been made by the commencement of the
          reporting period.
B.      Reports issued during the reporting period      0         $0           $0


        Subtotals (A + B)                               1         $6,557       $0


LESS:
C.      For which a management decision was made        1         $6,557       $0
        during the reporting period:
        (I)    dollar value of recommendations that     1         $2,254       $0
               were agreed to by management
        (II)   dollar value of recommendations that     1         $4,303       $0
               were not agreed to by management
D.      For which no management decision had been       0         $0           $0
        made by the end of the reporting period
        Reports for which no management decision        0         $0           $0
        had been made within six months of issuance




                                                        10
                                                      TABLE II

                       Audit Reports Issued with Funds to be Put to Better Use
                              for the Period Ending September 30, 1996


                                                        NUMBER        Dollar Value
                                                        REPORTS

A.      For which no management decision has been        0            $0
        made by the commencement of the reporting
        period.
B.      Reports issued during the reporting period       0            $0


        Subtotals (A + B)                                0            $0


LESS:
C.      For which a management decision was made         0            $0
        during the reporting period:
        (I)    dollar value of recommendations that      0            $0
               were agreed to by management
        (II)   dollar value of recommendations that      0            $0
               were not agreed to by management
D.      For which no management decision had been        0            $0
        made by the end of the reporting period
        Reports for which no management decision         0            $0
        had been made within six months of issuance




                                                         11
                                                     TABLE III

                                        Index to Reporting Requirements
                                            of the Inspector General


  IG Act***                          REPORTING REQUIREMENT                              PAGE
  Reference
  Section 4(a)(2)               Review of legislation and regulations                     8
  Section 5(a)(1)               Significant problems, abuses, and deficiencies            1
  Section 5(a)(2)               Recommendations with respect to significant             None
                                problems, abuses, and deficiencies
  Section 5(a)(3)               Prior significant recommendations on which              None
                                corrective action has not been completed
  Section 5(a)(4)               Matters referred to prosecutive authorities             None
  Section 5(a)(5)               Summary of instances where information was              None
                                refused
  Section 5(a)(6)               List of audit reports by subject matter, showing         4
                                dollar value of questioned costs (including a
                                separate category for the dollar value of unsupported
                                costs) and funds to be put to better use
  Section 5(a)(7)               Summary of each particularly significant report          4
  Section 5(a)(8)               Statistical table showing number of audit reports        10
                                and dollar value of questioned costs
  Section 5(a)(9)               Statistical table showing number of reports and          11
                                dollar value of recommendations that funds be put to
                                better use
  Section 5(a)(10)              Summary of each audit issued before this reporting      None
                                period for which no management decision was made
                                by the end of the reporting period
  Section 5(a)(11)              Significant revised management decisions                None
  Section 5(a)(12)              Significant management decisions with which the         None
                                Inspector General disagrees



***Refers to sections in the Inspector General Act of 1978, as amended.




                                                           12
